HHS/OIG, Audit -"Audit of HIV/AIDS Activities at the Greater Bridgeport Adolescent Pregnancy Program for the Period October 1, 2000 Through June 30, 2002,"(A-01-03-01500)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of HIV/AIDS Activities at the Greater Bridgeport Adolescent Pregnancy Program for the Period October 1, 2000 Through
June 30, 2002," (A-01-03-01500)
July 7, 2003
Complete
Text of Report is available in PDF format (169 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Greater Bridgeport Adolescent Pregnancy Program
(GBAPP):  (1) met grant performance expectations during the period October 1, 2000 through June 30, 2002; and (2)
spent Centers for Disease Control and Prevention (CDC) funding in accordance with federal guidelines.  We found that
GBAPP met its overall performance expectations but needs to improve its financial management system to ensure grant funds
are used for their intended purposes.  Specifically, GBAPP:  (1) charged the CDC grant for personnel costs that
it could not support because it had not developed a system for allocating salaries and wages based on personnel activity
reports; and (2) could not provide documentation to support selected costs benefiting more than one project.  We recommended
that GBAPP:  (1) continue the implementation of its revise effort reporting system and monitor all personnel expenses
charged to grants to ensure charges are based on actual grant activity, (2) establish written policies and procedures for
allocating costs benefiting more than one project, and (3) reimburse the CDC for the unsupported personal costs of $41,088.  The
GBAPP generally concurred with our findings and recommendations.